OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ZAMBIA’S
FOOD SECURITY ACTIVITIES

AUDIT REPORT NO. 4-611-10-007-P
SEPTEMBER 1, 2010




PRETORIA, SOUTH AFRICA
Office of Inspector General


September 1, 2010

MEMORANDUM

TO:                  USAID/Zambia Mission Director, Melissa Williams

FROM:                Acting Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:             Audit of USAID/Zambia’s Food Security Activities (Report No. 4-611-10-007-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them into the final report as
appropriate. They have been included in their entirety in Appendix II (excluding attachments).

The report includes eight recommendations to strengthen the mission’s food security activities.
On the basis of management’s comments, we consider that management decisions have been
reached and final action taken on Recommendations 1–6. Regarding Recommendation 7, that
the mission develop a detailed plan with milestones to increase the pace of project identification
by communities and compensate for vital skilled labor shortages in order to meet the overall
target for infrastructure improvement, the mission has obtained such a plan from its
implementing partner. This plan is currently under review by the Office of Food for Peace in
Washington, D.C. Accordingly, we consider that a management decision has been reached on
Recommendation 7. Please provide the Office of Audit Performance and Compliance Division
(M/CFO/APC) with the necessary documentation to achieve final action on this recommendation.

In response to management’s comments, we modified Recommendation 8 to state that the
mission should coordinate an independent cost analysis to determine whether internal transport,
storage, and handling costs have been correctly classified and to ascertain the most cost-effective
method of transporting and distributing commodities. Consequently, Recommendation 8 remains
without a management decision. We ask that you notify us within 30 days of any actions planned
or taken to coordinate an independent analysis.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street X5
Pretoria, South Africa 0027
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

     Material Misstatements Occurred in the
     Mission’s Annual Report ............................................................................................ 8

     Data Collection and Reporting Did Not
     Always Yield Useful Information ............................................................................... 10

     Infrastructure Activities Fell Significantly
     Below Target ............................................................................................................ 13

     Mission Could Not Determine Whether
     Food Storage and Distribution Costs
     Were Reasonable ..................................................................................................... 14

Evaluation of Management Comments ....................................................................... 17

Appendix I – Scope and Methodology ........................................................................ 21

Appendix II – Management Comments ....................................................................... 23
SUMMARY OF RESULTS
The main goals of USAID/Zambia’s food security activities are to help reduce food
insecurity 1 and increase resiliency 2 of vulnerable communities within targeted districts by
2011. To accomplish these goals, USAID’s Office of Food for Peace in Washington,
D.C., inaugurated a 5-year program of assistance in 2006 through an agreement with
the Consortium for Food Security, Agriculture and Nutrition, AIDS, Resiliency and
Markets. The consortium consists of Catholic Relief Services, CARE, World Vision, and
Land O’ Lakes; Catholic Relief Services serves as the lead organization. The total
estimated value of the agreement as of September 30, 2009, was $38 million, and the
total value of the agreement for fiscal year (FY) 2009 was approximately $8 million
(pages 3–4).

USAID/Zambia’s food security activities have made limited progress in achieving their
main goals related to food security. Although the audit team collected anecdotal
evidence that the mission’s food security activities were benefiting individuals, a lack of
reliable empirical evidence precluded fully evaluating the activities (pages 5–7). The
audit identified areas for improving the reporting, managing, and evaluating of
USAID/Zambia’s food security activities (pages 8–14). The audit also found that the
costs of food commodities were unreasonably high relative to commodity costs for
similar programs, a difference that has not been adequately investigated by the mission
(pages 14–16).

Among reporting problems, the audit found material misstatements related to food
security activities in USAID/Zambia’s Full Performance Plan and Report for FY 2009.
The number of program beneficiaries who reportedly made the transition from reliance
on food aid to sustainable farming was not adequately supported, while the number of
beneficiaries who received food aid assistance was significantly overstated (pages 8–
10). In addition, data collection and reporting did not always yield useful information in
accordance with USAID Office of Food for Peace guidelines (pages 10–13).

As for managing and evaluating, the mission also had scheduling and cost-control
problems. Infrastructure improvement activities were not on schedule to achieve
targeted results (pages 13–14). Also, distributed commodities were five to ten times
more expensive than comparable commodities on the local market. More than half of
the total costs of distributed commodities were internal transport, storage, and handling
expenses (pages 14–16).

To address these findings, the audit recommends:

•   Revising the mission’s FY 2009 annual report submission (page 10).



1
  Food insecurity is characterized by a lack of food security, or universal “physical and economic
access to sufficient food to meet . . . dietary needs for a productive and healthy life” (Food and
Nutrition Technical Assistance Project, Food Security Indicators and Framework for Use in the
Monitoring and Evaluation of Food Aid Programs, January 1999).
2
  Resiliency refers to the capacity of a community potentially exposed to hazards to adapt by
learning from past disasters and adopting risk reduction measures.


                                                                                                1
•   Developing written procedures to review annual report data (page 10).

•   Contacting the USAID Office of Food for Peace and taking steps to improve
    monitoring and evaluation of food security activities (page 12).

•   Developing written procedures to improve oversight of performance indicator
    reporting (page 12).

•   Providing guidance to consortium officials on performance reporting (page 13).

•   Determining whether currently reported indicators that are not required by Food for
    Peace should be modified or eliminated to improve the value and quality of reporting
    (page 13).

•   Developing a plan to meet targets for infrastructure improvement activities (page 14).

•   Determining whether internal transport, storage, and handling costs have been
    classified correctly and ascertaining the most cost-effective method of transporting
    and distributing commodities (page 16).

The audit’s scope and methodology are described in Appendix I. USAID/Zambia agreed
with all eight recommendations. On the basis of actions taken by the mission and the
documentation provided, final action has been taken on six of the recommendations, a
management decision was reached with final action pending for one recommendation,
and one recommendation was modified based on management comments; therefore, a
management decision is pending on the modified recommendation. USAID/Zambia’s
comments appear in their entirety in Appendix II (excluding attachments).




                                                                                        2
BACKGROUND
Poverty and food insecurity 3 are widespread throughout Zambia, one of the world’s least
developed countries. Nearly two-thirds (64 percent) of Zambians earn less than $1 per
day, and nearly half (45 percent) cannot meet their basic food needs. Among the many
causes of food insecurity in Zambia are poor health, limited rural development,
government policy that discouraged development of the agricultural sector, and low
agricultural productivity. Whereas Zambia produces about 1,800 kilograms of maize per
hectare, China produces almost three times as much.

To address this situation, USAID’s Office of Food for Peace 4 in Washington, D.C.,
signed a 5-year agreement in 2006 with a consortium to implement a program of food
security activities. The Consortium for Food Security, Agriculture and Nutrition, AIDS,
Resiliency and Markets includes Catholic Relief Services (CRS), CARE, World Vision,
and Land O’ Lakes, with CRS as the lead organization.

The goals of the consortium are to help reduce food insecurity and increase resiliency 5
of vulnerable communities in targeted districts in Zambia by 2011. To accomplish these
goals, the consortium has three synergistic objectives that focus on malnutrition and
HIV:

•   Objective 1. By 2011, vulnerable households in targeted districts have diversified or
    increased their agricultural livelihoods in a sustainable manner.

•   Objective 2. By 2011, extremely vulnerable households (those headed by the
    elderly, children, or those with HIV) in targeted districts have improved their
    nutritional health status.

•   Objective 3. By 2011, vulnerable communities in targeted districts have improved
    their collective ability to identify and respond to developmental issues and external
    shocks affecting food insecurity.



3
  Food insecurity is characterized by a lack of food security, or universal “physical and economic
access to sufficient food to meet . . . dietary needs for a productive and healthy life” (Food and
Nutrition Technical Assistance Project, Food Security Indicators and Framework for Use in the
Monitoring and Evaluation of Food Aid Programs, January 1999).
4
   The Agricultural Trade Development Assistance Act (Public Law 110–246, effective May 22,
2008, codified at 17 U.S.C. 1721 et seq.)—known as Public Law (P.L.) 480 because the original
act was Public Law 83-480—is the principal mechanism through which the U.S. Government
implements international food assistance. Renamed the Food for Peace Act in 2008 (although the
program name was changed to Food for Peace during the Kennedy Administration), the law
provides for direct donation of U.S. agricultural commodities to implement emergency and
nonemergency programs worldwide. USAID’s Office of Food for Peace manages Title II of the
Food for Peace Act, which authorizes the vast majority of U.S. international food assistance. Title
II provides U.S. food assistance in response to emergencies and disasters around the world, and
provides resources to help improve long-term food security. The U.S. Department of Agriculture
requests Title II funding.
5
   Resiliency refers to the capacity of a community potentially exposed to hazards to adapt by
learning from past disasters and adopting risk reduction measures.


                                                                                                 3
The consortium promotes more diverse and sustainable agricultural livelihoods through
conservation agriculture, dairy promotion, improved infrastructure and market access,
improved child nutrition, targeted food assistance, and community capacity building to
withstand shocks. The consortium also maintains a capacity for flexible emergency
response in accordance with what the consortium describes as developmental relief
principles. According to the consortium, “development relief” helps people recover from
emergencies, restore their livelihoods, and reduce the frequency and impact of new
shocks, often simultaneously. It is a process, as well as a programming approach, that
draws on community capacities and coping mechanisms as it seeks to strengthen them.
It was chosen by the consortium because development in Zambia has been limited by
recurring shocks and the generalized HIV epidemic.

USAID’s Office of Food for Peace in Washington, D.C., manages the agreement with the
consortium. The agreement officer and agreement officer’s technical representative are
in Washington, D.C. The agreement officer is legally responsible for the award. The
agreement officer’s technical representative is responsible for monitoring the
consortium’s progress in achieving the objectives of the program and for verifying
that the consortium’s activities being funded by USAID conform to the terms and
conditions of the award. USAID/Zambia manages the activities implemented by the
consortium in Zambia.

The targeted population comprises 148,345 residents of six highly food-insecure districts
in Zambia’s Southern and Western Provinces. The total estimated budget for the
program as of September 30, 2009, was $38.0 million. The total fiscal year (FY) 2009
value of the agreement was approximately $8.0 million, including $783,000 in
commodities; $306,200 in ocean freight; $171,000 in inland transportation costs; $4.0
million in internal transport, storage, and handling costs; and $2.7 million in
administrative costs. 6 Actual FY 2009 expenditures for internal transport, storage, and
handling costs and administrative costs were reported to be approximately $2.5 million
and $3.1 million, respectively.

AUDIT OBJECTIVE
As part of the FY 2010 audit plan, the Regional Inspector General/Pretoria performed
this audit to answer the following question:

    Are USAID/Zambia’s food security activities achieving their main goals of decreasing
    food insecurity and increasing resiliency?

Appendix I contains a discussion of the audit’s scope and methodology.




6
 Section 202(e) of P.L. 480 (codified at 17 U.S.C. 1722(e)) Title II authorizes funding to support
specific administrative costs for programs in foreign countries.


                                                                                                4
AUDIT FINDINGS
Are USAID/Zambia’s food security activities achieving their main
goals of decreasing food insecurity and increasing resiliency?
USAID/Zambia’s food security activities have made limited progress in achieving their
main goals of reducing food insecurity and increasing resiliency in vulnerable
communities in targeted districts by 2011. Although data quality problems prevented a
full evaluation of impact, the audit found evidence that activities were benefiting
individuals.

For example, in the community of Siakacheka, the auditors observed a field that was
used to demonstrate new agricultural techniques and equipment to approximately 20
beneficiary farmers. With the training and equipment, the beneficiaries had the field
ready for planting when the first rains came in late November 2009, while other farmers
were unable to plant until December. The difference between the mature crops in the
demonstration field and the younger crops in neighboring fields was evident, as shown in
the photos below. Early planting is critical because if rainfall suddenly diminished or
ceased, the mature crops would be more likely to survive than the younger crops.




Maize in a demonstration field in Siakacheka, Choma District (left), thrives compared with maize in a
conventional field in Milangu, Kazungula District (right). (Photo by Regional Inspector
General/Pretoria, March 2010)




                                                                                                   5
Another example involves the Positive Deviance (PD)/Hearth 7 activity. This child
nutrition activity uses community volunteers to identify and classify malnourished
children. Mothers and caregivers of severely malnourished children are encouraged to
enroll in the program, where they receive training on hygiene and on food preparation
and preservation. The goal is to have the child gain 400 grams (about 1 pound) within
12 days; children who do not gain the required weight are encouraged to reenroll. The
auditors spoke to a mother in the community of Simango whose 4-year-old had gained
the required weight; the mother noted that she was satisfied with the activity. Records
maintained by community volunteers indicated that children who had not gained the
requisite weight were subsequently reenrolled.

The audit also found some empirical data demonstrating that the mission’s food security
activities were having an impact. For example, 86 farmers supported by the mission’s
food security activities formed a cooperative in September 2009. These farmers stored
12,126 bags of surplus maize, each weighing 50 kilograms, in a shed renovated and
expanded under the food-for-assets 8 activity in the community of Manyemunyemu in
Kazungula District, Southern Province. The farmers sold the bags to the Food Reserve
Agency of the Zambian Ministry of Agriculture for approximately $168,000. Prior to the
renovation, farmers had to transport surplus produce to different sheds farther away to
sell it; the Food Reserve Agency does not send buyers to rural areas to purchase crops
unless a minimum amount is available for purchase. The renovated shed with its
additional capacity allowed the farmers’ cooperative to meet this minimum requirement
and thus sell surplus crops to the Food Reserve Agency. (See photos on the following
page of the shed before and after renovation.)

Additional empirical data came from the targeted food assistance activity, which
provided supplemental rations to food-insecure households including those affected by
HIV, the chronically ill, the elderly, and child- and female-headed households. The audit
found that approximately 14,000 individuals (both household heads and household
members) had benefited from the targeted food assistance activity during fiscal year
(FY) 2009. Approximately another 2,800 individuals reportedly benefited from food-for-
assets.

The combined total of beneficiaries from the food-for-assets activity and targeted food
assistance was approximately 16,800. This number was significantly less than the
42,000 individual beneficiaries reported in USAID/Zambia’s Full Performance Plan and
Report for FY 2009; the reasons for the discrepancy are discussed in the following
section. Moreover, targeted food assistance alone, even if successful, would not fully
meet the objectives for decreasing food insecurity.




7
   In the 1990s, nutrition professor Marian Zeitlin developed the positive deviance concept:
looking at children in poor communities who were better nourished than others and building on
behaviors in the community that contributed to the better-nourished children’s advantages. The
word “hearth” in the name of the activity indicates that its training sessions take place in homes
and neighborhoods.
8
  Beneficiaries of the food-for-assets activity provide labor to construct food infrastructure projects
in exchange for direct food aid.


                                                                                                     6
Bags of surplus maize (stacked in what appears to be a wall at left) are exposed to spoilage and theft
at the Manyemunyemu shed prior to renovation. (Photo by Consortium for Food Security,
Agriculture and Nutrition, AIDS, Resiliency and Markets, July 2007)




The Manyemunyemu storage shed, renovated and extended in July 2009, can store 4,690 50-
kilogram bags of surplus maize, as well as other crops. (Photo by Consortium for Food Security,
Agriculture and Nutrition, AIDS, Resiliency and Markets)



Finally, the audit concluded that an estimated 5,917 beneficiaries had received seeds
through the consortium. Although the consortium claimed that 6,780 households had
received seeds in FY 2009, supporting documentation merely listed individual
beneficiaries and provided no means to determine whether the beneficiaries listed
resided in the same household. In addition, the documentation included numerous
duplicate names as well as community groups. After these potential duplicates were
removed, 6,303 seed recipients remained. The audit team examined documentation for
a statistical sample of these individuals to verify their receipt of seeds; examination
revealed insufficient evidence of seed receipt for an estimated 386 of the 6,303
individuals.

Overall, the Regional Inspector General/Pretoria was unable to fully evaluate the impact
of USAID/Zambia’s food security activities because of a lack of relevant and reliable
empirical data. Data problems are discussed further in the following sections.




                                                                                                    7
Material Misstatements Occurred
in the Mission’s Annual Report

    Summary: USAID’s Automated Directives System, Chapter 203, “Assessing and
    Learning,” requires that performance data meet established data quality standards
    for accuracy and reliability.        Despite this guidance, USAID/Zambia’s Full
    Performance Plan and Report for FY 2009 contained several material
    misstatements related to food security activities. These misstatements occurred
    because the mission did not have adequate mechanisms to help ensure high-
    quality data. Information submitted by USAID missions for the Agency’s annual
    report is used for analyzing the performance of foreign assistance programs and for
    formulating the foreign assistance budget. This information must be accurate and
    reliable if it is to be used for sound decision making. Inaccurate information could
    lead to wasteful spending on programs that are not accomplishing what was
    reported.

The following managerial assertions were made in USAID/Zambia’s Full Performance
Plan and Report for FY 2009, under “Food Security”:

        In FY 2009, the program transitioned 6,780 households (40,700
        individuals) from relying on food aid donations to sustainable farming.
        These households received inputs and training in conservation farming
        and produced food to feed their households and sell surplus. The
        program provided food assistance to 7,012 vulnerable households
        (42,074 people) through targeted distribution of food and self-targeting
        food for assets. Beneficiaries for targeted food distribution included
        women and child-headed households, and chronically ill persons.
        Beneficiaries of food for assets participate in community works that
        includes construction and rehabilitation of markets and storage facilities,
        clinics, schools, and feeder roads.

The first assertion—that 6,780 households representing 40,700 individuals made the
transition from food assistance to sustainable farming—is materially misstated. The
supporting documentation provided by the consortium members indicated that the
reported figure of 6,780 represented individual farmers (not necessarily households) who
received startup seeds. As noted previously, subsequent testing revealed that this figure
was 5,917; thus, the reported number was overstated by 15 percent.

Moreover, officials from one consortium member agreed with the auditors’ conclusion
that seed receipt alone does not demonstrate that a transition was made. At least three
other scenarios are possible:

•    An individual who received seeds may have decided to plant, sell, or simply discard
     them. If planted, the crops may have failed or may not have produced a salable
     surplus.

•    Seed recipients may not have depended on food aid before they received seed. In
     fact, the audit identified farmers who stated that they were not on food aid before
     receiving seed. One lead farmer was selected to receive seeds and training not


                                                                                           8
      because he was on food aid—he was not—but because he had been relatively more
      successful than his contemporaries and was in a better position to teach
      conservation farming techniques.

•     Individual seed recipients may have continued depending on food aid after receiving
      seeds.

Furthermore, mission officials could not support the second part of the transition
assertion, that assisted individuals were able to feed their households and sell surplus
crops. Instead, the audit found significant challenges confronting farmers in marketing
particular crops. For example, growers of sorghum had difficulty marketing their crops
relative to growers of maize because the Zambian government buys surplus maize, even
though planting only maize has accelerated soil degradation and left farmers who cannot
afford commercial inputs such as fertilizer with little or no technological options. For all
crops to be successfully marketed, there must not only be available adequate quantities
but also adequate transportation and storage for both buyers and sellers. Although food
security activities assisted farmers in strengthening cooperatives, improving market
access, and transporting and storing surplus crops, the mission had no reliable system
for evaluating and measuring the effects or outcomes of these particular activities. In
short, there was no basis for asserting that the program helped beneficiaries progress
from food aid to sustainable farming.

The second assertion—that 7,012 households representing 42,074 individuals received
food assistance and self-targeting food-for-assets—is materially overstated. The audit
found that the actual number of beneficiaries, as reported by the consortium’s members,
was approximately 16,800 (14,000 targeted food assistance beneficiaries and 2,800
food-for-assets individual beneficiaries).     The difference between 16,800 actual
beneficiaries and approximately 42,000 reported beneficiaries is material. After
questioning, consortium officials acknowledged that the figures were overstated.

USAID’s Automated Directives System 203, “Assessing and Learning,” 9 addresses data
quality standards. These standards require that data clearly and adequately reflect the
intended result and that established mechanisms be in place to help ensure high-quality
reported data. When asked if any such mechanisms were in place, the mission
responded with a copy of a mission order dated January 7, 2007, entitled “Portfolio
Reviews.” This mission order established the guidelines and the process to review the
mission’s portfolio of strategic objectives and other program activities semiannually.
This process helps the mission assess progress toward the achievement of expected
results.

Despite this mission order, the mission accepted from the consortium the data described
above without any verification. Mission officials explained that USAID/Washington
wanted information that stated more than just processes or outputs and instead
measured impact. While other food security information that underwent the portfolio
review process may have been available, that information would not have been related
to impact or outcomes. In addition, portfolio reviews were not required for preparing
reports for use outside of the mission, such as the mission’s Full Performance Plan and



9
    ADS 203.3.5.1.


                                                                                          9
Report for FY 2009. Consequently, there was no mechanism to ensure that the impact
data reported therein met the required data quality standards.
The annual report information was submitted through the Foreign Assistance
Coordination and Tracking System (FACTS). Information submitted by USAID missions
through FACTS is used for analyzing the performance of foreign assistance programs
and formulating the foreign assistance budget. This information must be accurate and
reliable if it is to be used as the basis for sound decision making. If this information is
inaccurate, and if programs are not accomplishing what they claim to be accomplishing,
continued federal funding of such programs will be wasted. Consequently, this audit
makes the following recommendations.

      Recommendation 1. We recommend that USAID/Zambia revise its annual
      report submission to the Foreign Assistance Coordination and Tracking System
      related to food security activities for FY 2009.

      Recommendation 2. We recommend that USAID/Zambia develop written
      policies and procedures to review all data submitted through the Foreign
      Assistance Coordination and Tracking System to ensure that they meet USAID's
      data quality standards.

Data Collection and Reporting
Did Not Always Yield Useful Information
Summary: The USAID Automated Directives System includes guidelines on how to
report on performance indicators, including defining a target as a “planned level of result”
and noting that “data should reflect stable and consistent data collection processes and
analysis methods.” However, the consortium’s data collection and reporting was not in
accordance with USAID guidelines. The problems were attributable to a number of
issues, including lack of communication between key program officials, insufficient
oversight, misunderstanding of key concepts by consortium officials, and the improper
implementation of USAID Office of Food for Peace recommendations. These problems
hindered key officials in properly evaluating and managing the program.

The USAID Automated Directives System 10 (ADS) states that (1) for data to be valid,
they should clearly and adequately represent the intended result; (2) for data to be
reliable, they should reflect stable and consistent data collection processes and analysis
methods; (3) a performance target is a specific, planned level of result to be achieved
within an explicit timeframe that is required for each indicator; and (4) collecting data
too often is not economical because data require resources and effort to collect,
analyze, report, and use.

To improve compliance with these standards, the USAID Office of Food for Peace sent a
letter in May 2008 to the Baltimore, Maryland, office of Catholic Relief Services, which is
the lead member of the consortium. The letter made seven recommendations on how to
improve indicators in the indicator performance tracking table, which is a management
tool that lists performance indicators, targets, and results. For example, one of the



10
     ADS 203.


                                                                                         10
seven recommendations stated that two of the indicators must be collected using a
population-based survey at the beginning and the end of the program. A population-
based survey is a survey in which information is obtained directly from a representative
sample of the population, typically through interviews rather than from service records or
other indirect sources.

Despite these recommendations, the performance information reported by the
consortium and USAID/Zambia was not in accordance with either USAID or Office of
Food for Peace guidelines. The performance information is included in the consortium’s
annual report as a table of 18 indicators that was designed to measure activities’
progress toward achieving their main goals. The audit reviewed all 18 performance
indicators and found that they were not always (1) valid, because the indicator name and
the reported information were not consistent, (2) reliable, because the reported
information was not comparable on a year-to-year basis, (3) reported with appropriate
targets, or (4) obtained economically.

One indicator that was not consistently defined was the "percentage of households with
improved livelihood scores." Although the indicator was defined as a percentage, the
baseline figure, targets, and actual results were reported as numbers for FY 2007–9.
Additionally, in FY 2009, the consortium reported an amount that was the sum of three
separate and distinct processes, none of which was a survey of the population, to
determine the percentage of households whose livelihood score had increased.

An example of a performance indicator that was not comparable on a year-to-year basis
was the “average household dietary diversity score,” which is a measure of a
household’s dietary status. In FY 2009, the consortium reported an average score of 4.9
against a target of 3.4. However, in each prior year the average score was calculated
for targeted food assistance beneficiaries only, while in FY 2009 the consortium
reported the average dietary diversity score for the six districts in which the consortium
was active. Thus, the 2009 average score included those who resided in districts where
the consortium operated but were not necessarily beneficiaries of its programs, while the
average scores for prior years were based only on program beneficiaries. Although the
Office of Food for Peace requested that this indicator be calculated for the whole
population, comparing the average household dietary diversity score of the general
population with that of people who required food assistance was misleading.

An example of how targets were not set as planned levels of result was the “number of
PD/Hearth participants successfully graduating from PD Hearth.” Consortium officials
noted that the target for the indicator, 881 participants, was the total number of children
involved in the program, and that the target was set after the activities ended, rather than
prior to their commencement; hence, the target was not a planned level of result and
could not be used to determine whether the consortium was making progress toward
achieving its main goals.

Lastly, an example of an indicator for which data were not obtained economically was
the “number of months of adequate food provisioning.” The letter from the Office of
Food for Peace to Catholic Relief Services noted that the indicator should be measured
only twice—once at the beginning of the program as a baseline and again at the end of
the activity. Nonetheless, the consortium established annual targets and collected
indicator data annually, even after being informed that such efforts were unnecessary.



                                                                                         11
To collect annual data, the consortium spent $8,000 to prepare the FY 2009 Crop
Monitoring and Forecast report. This report included interviews with almost 800
households regarding the 2009 harvest, including the number of months of adequate
food provisioning. The reported result for FY 2009 was 8 months. However, this result
was calculated incorrectly. It was based on household estimates over the next 12
months, while Agency guidance stated that the result should be based on household
estimates of adequate food provisioning over the previous 12 months. Although other
information was collected with this survey, it could have been collected more
economically and did not justify the cost of the survey. Consequently, the consortium
spent $8,000 to prepare a report that was unnecessary and that incorrectly calculated a
key indicator.

The problems were attributable to a number of factors, including:

•   The letter from the Office of Food for Peace containing guidance on changes that
    should be made to the indicator performance tracking table was not shared with
    USAID/Zambia by either the Office of Food for Peace or the consortium.
    Furthermore, the consortium only superficially addressed the issues raised in the
    letter. For example, the consortium responded to concerns about how the "number
    of months of adequate food provisioning” indicator was prepared merely by stating
    that it was prepared in line with guidance, although the indicator was not prepared in
    accordance with guidance. The audit team asked the Office of Food for Peace why
    the letter was not shared with USAID/Zambia, but the office did not respond to our
    requests for clarification. This miscommunication also led to uneconomical data
    collection.

•   USAID/Zambia had insufficient procedures to oversee the collection and reporting of
    the data on indicators included in the indicator performance tracking table.

•   The consortium officials were not aware of key concepts related to performance
    indicator reporting, including the purpose of targets and what the percent
    accomplished should indicate.

These issues hindered consortium and USAID officials, including the agreement officer
and the agreement officer’s technical representative, in properly evaluating and
managing the program. Consequently, the indicator performance tracking table could
not be used to demonstrate the impact of the mission’s food security activities.

Therefore, this audit makes the following recommendations.

    Recommendation 3. We recommend that USAID/Zambia contact the USAID
    Office of Food for Peace and take steps to coordinate and improve monitoring
    and evaluation of food security activities in Zambia.

    Recommendation 4. We recommend that USAID/Zambia develop written
    procedures to improve oversight of reporting on performance indicators related to
    food security.




                                                                                        12
   Recommendation 5. We recommend that USAID/Zambia provide guidance to
   consortium officials responsible for implementing food security activities on the
   purpose of performance indicators, including how to develop targets and report
   valid, relevant, and reliable information.

   Recommendation 6. We recommend that USAID/Zambia determine whether
   currently reported indicators that are not required by USAID’s Office of Food for
   Peace should be modified or eliminated to improve the value and quality of the
   reporting on performance indicators.

Infrastructure Activities Fell
Significantly Below Target
Summary: Results for one key food security indicator—number of communities with
improved infrastructure to mitigate the impacts of shock—were significantly below target.
Mission officials cited delays in project identification, adverse weather, and the
unavailability of labor as reasons for not meeting targets.            Without improved
infrastructure, such as larger storage sheds or better roads, communities’ abilities to
enhance their own food security and increase resiliency will not be achieved.

One of USAID/Zambia’s key food security indicators was the "number of communities
with improved infrastructure to mitigate the impacts of shock." This indicator was
significantly below target for FY 2009 as well as cumulatively for the 3 fiscal years then
ended. The FY 2009 target was 20 communities, while the reported result was 12
communities, or 60 percent of the target. For the 3 fiscal years ended September 30,
2009, the target was 33 communities, while the actual reported result was 22
communities, or 69 percent of the target.

In addition, the target over the project’s 5-year life is 60, or one project per each targeted
community. The agreement expires September 30, 2011. As of September 30, 2009,
the program needed to complete 38 projects in the remaining 2 years to reach its target.

Projects include rehabilitation of community schools and health centers; provision or
rehabilitation of water sources; restoration of dams, water tanks, roads, and storage
sheds; and construction of pit latrines. These are food-for-assets projects in which
individuals provide labor in return for food rations. One example is the Manyemunyemu
storage shed, described earlier, that helped farmers market and sell surplus crops.
Without these types of activities, farmers cannot sell their crops as effectively. Thus,
these projects are critical to reducing food insecurity and increasing resiliency.

According to mission officials, several factors explain why these targets were not
achieved. First, the commencement of the project was delayed for nearly 1 year. The
original award was signed in September 2006, and USAID intended the program to start
in October. However, a continuing resolution by the U.S. Congress that year delayed
funding for 3 to 4 months. Moreover, when funds finally arrived, they were sufficient only
to start the program, which took another 8 months.

Next, the pace at which communities identified projects and obtained necessary
approvals for construction was slow. According to the mission, communities must define
and approve projects before commencing activities. Mission officials stated that past


                                                                                           13
experience indicated that, if projects are dictated to communities, they become “white
elephants” and are not fully utilized as intended, resulting in project failure. As a result,
food security activities were designed to give communities the authority to make their
own decisions about their needs and priorities; however, this decentralized decision
making can result in implementation delays as communities seek consensus on the
projects that should be initiated.

Finally, other factors cited by the mission for delays included adverse weather
conditions; lack of skilled labor in some communities, such as masons and carpenters;
and reduced labor, especially for projects implemented during field preparation and
harvest. Most beneficiaries work in their own fields during these times.

Mission officials admitted that completing 38 more infrastructure improvement projects
by the agreement expiration date of September 30, 2011, will be challenging.
Consequently they explained that they are working with the consortium to address this
issue. Given these circumstances, the audit makes the following recommendation.

   Recommendation 7. We recommend that USAID/Zambia develop a detailed
   action plan, with milestones, to increase the pace of project identification by
   communities and compensate for vital skilled labor shortages in order to meet
   the overall target for infrastructure improvement.

Mission Could Not Determine
Whether Food Storage and
Distribution Costs Were
Reasonable
Summary: Internal transport, storage, and handling (ITSH) funding must be reasonable,
allowable, and allocable, and must support costs associated with the provision of Title II
commodities to the final distribution point after commodities have arrived in-country. The
costs, including ITSH expenses, of commodities that were distributed for targeted food
assistance and food-for-assets activities were five to ten times higher than those of
comparable commodities on the local market. Although internal transport costs were
reviewed in 2006, the analysis reviewed only the actual transportation costs, which were
less than 10 percent of the total food storage and distribution costs reported by the
consortium in FY 2009. Because a comprehensive review of food storage and
distribution costs was not performed, USAID could not determine whether its ITSH costs
were reasonable and may have paid substantially higher costs than necessary, possibly
as a result of waste, fraud, or abuse.

ADS section 596.3.1 states that USAID “must develop and implement appropriate, cost-
effective internal controls” to help ensure that costs comply with applicable laws and
regulations and that assets are not wasted. One applicable regulation is that eligible
uses for ITSH funding under the Food for Peace Act must be reasonable, allowable, and
allocable and must support costs associated with the provision of Title II commodities to
the final distribution point, including household or local warehouse.             Office of
Management and Budget Circular A-122, “Cost Principles for Non-Profit Organizations,”
Attachment A, states: “A cost is reasonable if, in its nature or amount, it does not exceed



                                                                                          14
that which would have been incurred by a prudent person under the circumstances
prevailing at the time the decision was made to incur costs.”

Despite the requirement to implement appropriate internal controls, the mission did not
undertake a thorough, systematic review of food storage and distribution costs, even
though the audit indicated that some of these costs, as reported, were unreasonable.
For example, the commodities distributed for targeted food assistance and food-for-
assets projects cost five to ten times as much as comparable commodities on the local
market. For example, in FY 2007, the consortium sold wheat in Zambia for $381 per
metric ton; from consortium reports, the audit determined that wheat distributed in
FY 2009 cost USAID $2,096 per metric ton, or 5.5 times as much, even though the price
of wheat in the United States declined between those years. Also, according to the
Food and Agriculture Organization of the United Nations, soybeans were exported by
Zambian farmers 11 at $267 per metric ton in 2007; from consortium reports, the audit
determined that lentils (a similar product) cost USAID $2,636 per metric ton in FY 2009,
or 9.9 times as much.

The audit determined that ITSH expenses, which are for distributing the food after its
arrival in-country, were more than three times the cost of commodities. The table below
translates the ITSH expenses into cost per dollar of food aid. By way of comparison, a
2003 audit of a similar program in Haiti reported ITSH expenses between $0.24 and
$0.66 per dollar of food aid. Additionally, ITSH expenses in Uganda for a similar
program currently under audit were about $0.41 per dollar of commodity distributed in
FY 2009.

 Internal Transportation, Storage, and Handling Costs Incurred by the Consortium
          in FY 2009 Compared With the Value of the Food Aid Distributed
           Item              Commodity        Cost of Storage and      Cost of Storage and
                               Value             Distribution*         Distribution per $1 of
                                                                             Food Aid
 Total                         $783,000              $2,490,657                $3.18
   Personnel                      ---                $1,097,903                $1.41
   Consultants                    ---                      9,701                0.01
   Fringe & Benefits              ---                    147,432                0.19
   Travel                         ---                    129,170                0.16
   Commodity
   Transportation                 ---                    213,504                0.27
   Training                       ---                      2,826                0.00
   Supplies/Materials             ---                     61,857                0.08
   Other Direct Costs             ---                    828,264                1.06
* The costs of storage and distribution in the table are from the consortium’s annual report,
whereas the $4.0 million mentioned earlier in the report refers to the budget.

Mission officials stated that a comprehensive review of storage and distribution cost-
effectiveness was not undertaken because cost-effectiveness is among the selection
criteria used by the Office of Food for Peace to choose the organization that will
implement the program. This consideration, however, should not preclude reviews as

11
  The export price is a proxy for the local market; if soybeans were exported for that price, the
domestic price would have been lower, and thus traders would not have sold them locally.


                                                                                                15
necessary when costs appear to be unreasonable. USAID/Zambia officials noted that
transportation rates from the warehouses to food distribution points were reviewed in
2006. This review, however, examined only actual transportation costs, which by FY
2009 were less than 10 percent of the total food storage and distribution costs reported
by the consortium.

In addition, mission officials noted that, because the consortium was not able to
monetize 12 commodities in 2009, over $700,000 was added to ITSH funding to cover
costs that would have been paid for with monetization proceeds. Mission officials
conceded that these costs “may not have directly contributed towards distribution of
food.” Specifically, less than $11,000 (only 1.5 percent) of the funding increase was
budgeted for commodity transportation and storage, while over $400,000 (more than 50
percent 13 ) went toward personnel and benefits, suggesting that ITSH funding may have
been misclassified. If they were not misclassified, USAID/Zambia could not determine
whether the costs were reasonable because it had not done a comprehensive cost
analysis.

Given these circumstances, the Regional Inspector General/Pretoria makes the following
recommendation.

     Recommendation 8. We recommend that USAID/Zambia coordinate an
     independent cost analysis to determine whether internal transport, storage, and
     handling costs have been correctly classified and to ascertain the most cost-
     effective method of transporting and distributing commodities.




12
   Monetization is the practice of selling food aid to generate cash for development projects. The
consortium could not sell food aid in Zambia in 2009 because the Government of Zambia banned
the import of the commodity the consortium planned to sell: wheat.
13
   Additionally, 26 percent went to other direct expenses, 13 percent went to travel expenses,
2 percent went to training, and 2 percent went to consultants.


                                                                                               16
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report on USAID/Zambia’s food security activities, the mission
concurred with all eight of the recommendations. The mission’s comments and audit
team’s evaluation of those comments are summarized below.

Regarding Recommendation 1, the draft audit report recommended that USAID/Zambia
revise its annual report submission to the Foreign Assistance Coordination and Tracking
System (FACTS) related to food security activities for the fiscal year (FY) ending
September 30, 2009. USAID/Zambia responded that it made the revisions to the
FACTS Program Performance Report on March 11, 2010. On the basis of information
provided by the mission in response to the draft report, we determined that final action
has been taken, and the recommendation is closed on issuance of this report.

Regarding Recommendation 2, the draft audit report recommended that USAID/Zambia
develop written policies and procedures to review all data submitted through FACTS to
ensure that they meet USAID's data quality standards. USAID/Zambia responded that it
had approved a data quality assessment mission order on July 19, 2010. The mission
order applies to all USAID programs and ensures that data collected and submitted meet
USAID data quality standards. The mission also responded that it had undertaken other
efforts to ensure that data quality standards are met, such as requesting that its
implementing partner, the Consortium for Food Security, Agriculture and Nutrition, AIDS,
Resiliency and Markets (the consortium), use the Quarterly Web Commodity Reporting
(QWICR) tool. Consortium staff members have completed training on this tool. The
consortium will now be submitting quarterly commodity reports through QWICR, starting
with the third quarter of FY 2010. QWICR is a transparent system that allows
USAID/Zambia quick access to consortium data on food commodity quantities and
beneficiaries. On the basis of information provided by the mission in response to the
draft report, we determined that final action has been taken, and the recommendation is
closed on issuance of this report.

Regarding Recommendation 3, the draft audit report recommended that USAID/Zambia
contact the USAID Office of Food for Peace and take steps to coordinate and improve
monitoring and evaluation of food security activities in Zambia. USAID/Zambia
responded that it has been taking steps to improve monitoring and evaluation of food
security activities in Zambia and will continue to do so. For example, the mission
reported that it will continue to hold monthly conference calls to discuss consortium
program monitoring, and both the mission and the Office of Food for Peace will share
communications with consortium members. USAID/Zambia and the Office of Food for
Peace will also provide input in the development of the scope of work for the final
evaluation of the consortium program, scheduled to take place in FY 2011 before the
end of the program in accordance with Food for Peace Information Bulletin 09-06,
Section II. On the basis of information provided by the mission in response to the draft
report, we determined that final action has been taken, and the recommendation is
closed on issuance of this report.




                                                                                        17
Regarding Recommendation 4, the draft audit report recommended that USAID/Zambia
develop written procedures to improve oversight of reporting on performance indicators
related to food security. USAID/Zambia responded that it had taken actions such as
approving a new mission order on data quality assessments on July 19, 2010, and
strengthening its Food for Peace activity manager’s monitoring plan specifically to
increase oversight of reporting on food security performance indicators. The mission
also stated that it had plans to conduct data quality assessments during visits to the
activity sites of consortium members, in accordance with the data quality assessment
mission order mentioned above. On the basis of information provided by the mission in
response to the draft report, we determined that final action has been taken, and the
recommendation is closed on issuance of this report

Regarding Recommendation 5, the draft audit report recommended that USAID/Zambia
provide guidance to consortium officials responsible for implementing food security
activities on the purpose of performance indicators, including how to develop targets and
report valid, relevant, and reliable information. USAID/Zambia responded that it had
taken steps to address this recommendation. These include providing guidance to the
consortium on performance indicators, targets, and reporting at a meeting held June 21,
2010, and providing the consortium with written guidance on defining performance
indicators, developing targets, and reporting quality data. The mission reported that, as
a result of the June 21 meeting and guidance provided, the consortium has completed
clarifying indicator definitions, data collection methods, and methods for reporting on its
performance indicators. On the basis of information provided by the mission in response
to the draft report, we determined that final action has been taken, and the
recommendation is closed on issuance of this report.

Regarding Recommendation 6, the draft audit report recommended that USAID/Zambia
determine whether currently reported indicators that are not required by USAID’s Office
of Food for Peace should be modified or eliminated to improve the value and quality of
the performance indicator reporting. USAID/Zambia responded that it had taken steps to
address this recommendation. For example, subsequent to the audit, and with
assistance and guidance from the Office of Food for Peace and the mission, the
consortium submitted a draft of proposed indicator clarifications. The mission also
stated that, because the consortium’s agreement ends in September 2011, the Office of
Food for Peace had determined that changing indicators at this time would be
counterproductive. Therefore, the Office of Food for Peace has requested that the
consortium address any shortcomings on individual indicators as part of its final
evaluation to inform future programming. Finally, USAID/Zambia reported that the Office
of Food for Peace will review the consortium’s draft copy of clarified performance
indicators through the Pipeline and Resource Estimate Proposal (PREP) due by August
31, 2010. On the basis of information provided by the mission in response to the draft
report, we determined that final action has been taken, and the recommendation is
closed on issuance of this report.

Regarding Recommendation 7, the draft audit report recommended that USAID/Zambia
develop a detailed action plan, with milestones, to increase the pace of project
identification by communities and compensate for vital skilled labor shortages in order to
meet the overall target for infrastructure improvement. USAID/Zambia responded that,
as activity manager (not agreement officer’s technical representative) and taking into
consideration ‘substantial involvement’ limitations, the mission consulted the consortium
on ways it might increase the pace of the project. The consortium developed a detailed


                                                                                        18
plan, which is currently under review by the Office of Food for Peace for approval along
with the PREP. The mission asserted that this will increase the pace at which
communities identify projects and compensate for vital skilled labor shortages to meet
the overall target for infrastructure improvement. This plan, once reviewed, modified as
necessary, and approved by the Office of Food for Peace, will be included in the
FY 2011 PREP, and USAID and the Office of Food for Peace will use the presented plan
to monitor progress. On the basis of information provided by the mission in response to
the draft report, we determined that a management decision has been reached on this
recommendation.

Regarding Recommendation 8, the draft audit report recommended that USAID/Zambia
coordinate a cost analysis to determine whether internal transport, storage, and handling
costs have been correctly classified and to ascertain the most cost-effective method of
transporting and distributing commodities. USAID/Zambia responded that the Office of
Food for Peace had performed a cost analysis and a funding classification analysis at
program initiation and annually for the consortium’s program. The consortium’s budget
was reviewed when the program was proposed and each year thereafter by the program
operations division of the Office of Food for Peace. Any excessive costs or
inappropriate classifications were addressed and resolved at the time of those reviews.

The mission also noted that the program does not derive any economies of scale in
commodity distribution because it handles relatively small quantities of food
commodities. Some examples where the program is disadvantaged include:

•   The program’s average annual food commodity need per district is 250 metric tons.
    Available average storage space in all districts is 1,500 metric tons. The consortium
    therefore has to rent a much larger storage space for only 250 metric tons of food.

•   The program distributes an average of 2 metric tons per month to 60 sites, spread
    over six districts. The small quantity and the distance between sites do not attract
    competitive distribution bids.

The mission further stated that Food for Peace/Washington and USAID/Zambia plan to
continue to perform annual cost analysis and funding classification analysis for the
consortium’s program. In reviewing future budget PREP submissions, starting with the
FY 2011 submission, Food for Peace/Washington and USAID/Zambia will conduct a
more thorough cost analysis to determine whether internal transport, storage, and
handling costs are correctly classified and are reasonable. Further, to ascertain the
most cost-effective method of transporting and distributing commodities, Food for
Peace/Washington and USAID/Zambia will ensure that the consortium gets multiple
price quotes for transporting and distributing agreements, in accordance with USAID
procurement policies and guidelines.

The Regional Inspector General/Pretoria disagrees. As noted in this report, funds
allocated for transportation and storage accounted for only 10 percent of internal
transport, storage, and handling expenses.        Therefore, the disadvantages that
USAID/Zambia mentioned in their management comments played an insignificant role in
the abnormally high internal transport, storage, and handling expenses. We are
modifying our recommendation to state that the mission should coordinate an
independent cost analysis to determine whether internal transport, storage, and handling
costs have been correctly classified and to ascertain the most cost-effective method of


                                                                                      19
transporting and distributing commodities. On the basis of information provided by the
mission in response to the draft report, we determined that a management decision has
not been reached on this recommendation.




                                                                                   20
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions in accordance with our audit objective. This objective is
to determine whether USAID/Zambia’s food security activities are achieving their main
goals of reducing food insecurity and increasing resiliency in targeted vulnerable
communities of Zambia by 2011. We believe the evidence obtained provides that
reasonable basis. Audit fieldwork was conducted at USAID/Zambia and at selected
offices and activity sites of consortium members in Zambia from February 16 to March 5,
2010, and covered fiscal year (FY) 2009.

As of September 30, 2009, USAID/Zambia was implementing a 5-year assistance
program through an agreement between USAID’s Office of Food for Peace in
Washington, D.C., and the Consortium for Food Security, Agriculture and Nutrition,
AIDS, Resiliency and Markets. The agreement’s total estimated value was $38,041,644,
including nonfederal cost sharing of $1,364,707 and an estimated commodity value of
$6,729,100. The total FY 2009 value of the agreement was approximately $8.0 million,
including $783,000 in commodities; $306,200 in ocean freight; $171,000 in inland
transportation costs; $4.0 million in internal transport, storage, and handling costs; and
$2.7 million in 202(e) (administrative) funding.

In planning and performing the audit, the audit team assessed management controls
related to management review, proper execution of transactions and events, and review of
performance measures and indicators.       Specifically, we examined and evaluated
documentation prepared by the mission and consortium members including the following:

•   Consortium agreement and amendments

•   Consortium proposal

•   Indicator performance tracking table

•   Target and actual performance results

•   Data quality assessments

•   Site visit reports prepared by USAID/Zambia officials

•   USAID/Zambia’s FY 2009 Full Performance Plan and Report

•   USAID/Zambia’s certification required under the Financial Managers’ Financial
    Integrity Act of 1982 (as codified in 31 U.S.C. 1105, 1113, 3512)




                                                                                       21
We also interviewed key USAID/Zambia personnel, consortium officials, and individual
beneficiaries.

Methodology
To answer the objective, we interviewed USAID/Zambia mission and consortium
officials. We sought to understand the mission’s food security activities and to identify
the key performance indicators used to measure the contribution of those activities to
meeting the main goals of decreasing food insecurity and increasing resiliency.

Next, we examined claims and assertions made in USAID/Zambia’s Full Performance
Plan and Report for FY 2009, under “Food Security,” as submitted to the Foreign
Assistance Coordination and Tracking System. We used both judgmental and statistical
sampling to test numerical assertions regarding reported beneficiaries of the mission’s
food security activities. We used these methods because they were the most effective
and efficient given available resources.

The mission initially reported that approximately 42,000 individuals benefited from its
targeted food assistance and food-for-assets activities during FY 2009. We determined
that this number was incorrect. The consortium reported that approximately 16,800
individuals benefited from targeted food assistance and food-for-assets activities during
FY 2009. Of these 16,800, we judgmentally selected 198 to determine whether they had
received food assistance. The results of our test cannot be projected to the population.

The consortium claimed that 6,780 households had received seeds through the program
in FY 2009. After potential duplicates were removed, a list of 6,303 seed recipients (not
necessarily households) remained. We chose at random 49 14 of the 6,303 individuals
who reportedly had received seeds and reviewed documentation to verify their receipt of
seeds. The documentation did not support receipt of seeds by all of these individuals.
Projecting our results to the population, we estimated that 5,917 beneficiaries, plus or
minus 4 percent, received seeds in FY 2009.

We also examined the indicator performance tracking tables. We interviewed the
consortium’s monitoring and evaluation specialists to determine how performance
targets and results were set and obtained. As part of this process, we gained an
understanding of the data reported annually to the mission and developed procedures to
test the data’s validity and reliability. We also conducted site visits in Southern Province
to verify the existence or occurrence of activities.

Finally, we reviewed documents as part of our audit procedures. These included
excerpts from USAID/Zambia’s annual report for FY 2009, as explained above; the
agreement with the consortium and all modifications; and the consortium’s monitoring
and evaluation plan. We also utilized the Government Accountability Office’s Standards
for Internal Control in the Federal Government; Office of Management and Budget
Circular A-122, “Cost Principles for Non-Profit Organizations”; and USAID’s Automated
Directives System, Chapters 200 through 203.



14
  The sample size of 49 was calculated using a one-sided random sample with a 90-percent
confidence interval, a variation of 0.04, and an expected error rate of 0.05.


                                                                                         22
                                                                            APPENDIX II



MANAGEMENT COMMENTS



Date:          July 22, 2010

To:            Likza Iglesias, Acting Regional Inspector General (RIG)/Pretoria

From:          Sheila Lutjens, Acting Mission Director, USAID/Zambia /s/

Subject:       Management decisions on the Audit of USAID/Zambia’s Food
               Security Activities (Audit Report No. 9-611-10-XXX-P)

USAID/Zambia appreciates the June 23, 2010 Audit Report by RIG/Pretoria pertaining to
USAID/Zambia’s food security activities. The above subject audit report and
recommendations will improve the quality of the program and will ensure that
USAID/Zambia food security activities achieve their intended objectives.

USAID/Zambia has reviewed and is in agreement with all eight (8) recommendations.
The following provides Mission Management’s responses and actions already taken and
those planned to be taken, in order to properly address the findings and recommendations
contained in the report. In addition, Mission Management suggests that RIG/Pretoria
consider clarifying, throughout the entire audit report, that the Food Security Activities
Audit focused specifically on the Consortium for Food Security, Agriculture and
Nutrition, AIDS, Resiliency and Markets (CFAARM) program, an agreement between
USAID/Food for Peace (FFP) and Catholic Relief Services (CRS - Transfer
Authorization award number FFP-A-00-07-00004-00). The audit did not include other
USAID/Zambia specific food security activities. This CRS award is centrally funded and
the agreement officer is the Director of the office of FFP in Washington. USAID/Zambia
staff serves as the Activity Manager of the CRS award. USAID/Zambia has not
obligated any funds into this agreement.

Recommendation No. 1: We recommend that USAID/Zambia revise its annual
report submission to the Foreign Assistance Coordination and Tracking System
related to food security activities for FY 2009.

Actions Taken:
USAID/Zambia made the revisions to the Foreign Assistance Coordination and Tracking
System (FACTS) Program Performance Report (PPR) on March 11, 2010. Attachment 1



                                                                                       23
is the printout of pages 73 and 85 of the revised FACTS PPR from Humanitarian
Assistance.

The above constitutes the measures taken to ensure that Recommendation No. 1 is
addressed. Therefore, Mission recommends that Recommendation No. 1 be closed.

Recommendation No. 2: We recommend that USAID/Zambia develop written
policies and procedures to review all data submitted through the Foreign Assistance
Coordination and Tracking System to ensure that they meet USAID's data quality
standards.

Actions Taken:
   1. USAID/Zambia approved the Data Quality Assessment (DQA) Mission Order
      (Attachment 2) on July 19, 2010. The Mission Order applies to all USAID
      programs and ensures data collected and submitted meets USAID data quality
      standards.

   2. Other USAID/Zambia and FFP efforts undertaken to ensure that data quality
      standards are met include the following:

       •   USAID conducted a DQA on CFAARM in January 2010 (Attachment 3) and
           complies with the ADS 203.3.5.2 requirement that Missions hold DQAs every
           three years.

       •   To further strengthen data reviews, FFP Pretoria requested that CFAARM use
           Quarterly Web Commodity Reporting (QWICR) tool, located at
           www.qwicr.com. CFAARM staff has completed training on this tool (see
           Attachment 4: QWICR training attendance list). CFAARM will now be
           submitting quarterly commodity reports through QWICR, starting with the
           third quarter of Fiscal Year (FY) 2010. The QWICR is a transparent system
           which allows USAID/Zambia quick access to CFAARM data on
           food/commodity quantities and beneficiaries. USAID/Zambia will be able to
           review and analyze the submissions and track loss trends in a timely manner.

Planned Actions:
   1. In addition to QWICR, USAID/Zambia is overseeing development of a
      comprehensive database by CFAARM to track all beneficiaries (includes food for
      work, conservation agriculture, nutrition activities and key interventions of the
      program). USAID/Zambia and CFAARM met on June 15, 2010 (Attachment 5)
      to discuss the development of the database. This comprehensive database will
      enhance the programs ability to track real-time information on beneficiaries and
      key interventions of the program at prime partner and sub-partner level. The
      database will be fully developed and functional by July 30, 2010 (Attachment 6:
      Timeline for database development). As of July 23, approximately 85% of the
      database has been completed.




                                                                                     24
The above constitutes the measures taken to ensure that Recommendation No. 2 is
addressed. Therefore, Mission recommends that Recommendation No. 2 be closed.

Recommendation 3: We recommend that USAID/Zambia contact the USAID Office
of Food for Peace and take steps to coordinate and improve monitoring and
evaluation of food security activities in Zambia.

Actions Taken:
   1. USAID/Zambia’s FFP Activity Manager and General Development Officer met
      with the FFP Country Backstopping Officer (CBO), the Agreement Officer’s
      Technical Representative (AOTR) for this award, on March 30, 2010, in Zambia
      (Attachment 7). USAID/Zambia and the CBO agreed to continue coordinating
      and improving monitoring of the CFAARM program. Some of the actions agreed
      in the meeting include: sharing all communication with implementing partners;
      and continue holding monthly conference calls to discuss CFAARM program
      monitoring.

   2. Regular communication occurs between USAID/Zambia and FFP regional staff
      located in USAID/South Africa. FFP regional staff conducts at least two
      monitoring visits per year in Zambia. The most recent visit was in February 2010
      when the FFP Regional Officer and Commodity Specialist conducted QWICR
      training, referenced in ‘actions taken’ under Recommendation No. 2.

   3. FFP/Washington will continue to monitor the program and engage independent
      institutions to conduct evaluations of the CFAARM program, in accordance with
      the FFP Information Bulletin 09-06 (Attachment 8). FFP/Washington,
      FFP/Regional officers, and USAID/Zambia will review the scope of work for the
      independent evaluations and will ensure that the partner implements evaluation
      recommendations. CFAARM developed an Action Plan (Attachment 10) for
      implementation of recommendations, findings and observations defined in the:
      CFAARM mid-term evaluation of October 2009 (Attachment 9), the CFAARM
      DQA, (Attachment 3), and RIG/Pretoria Audit of USAID/Zambia Food Security
      Activities (2010).

Planned Actions:
   1. FFP and USAID/Zambia will continue to hold monthly conference calls to
      discuss CFAARM program monitoring and both will share communication to
      implementing partners, as per Attachment 7.

   2. FFP and USAID/Zambia will provide input in the development of the scope of
      work for the final evaluation of the CFAARM program, scheduled to take place in
      FY 2011 before the end of the program and in accordance with FFP Information
      Bulletin 09-06-Section II.D (Attachment 8).

The above constitutes the measures taken to ensure that Recommendation No. 3 is
addressed. Therefore, Mission recommends that Recommendation No. 3 be closed.



                                                                                    25
Recommendation 4: We recommend that USAID/Zambia develop written
procedures to improve oversight of reporting on performance indicators related to
food security.

Actions Taken:
   1. USAID/Zambia approved the DQA Mission Order on July 19, 2010 (Attachment
      2). The Mission Order will guide USAID/Zambia in providing oversight and
      ensuring that data submitted by partners meet quality standards.

   2. In addition to the DQA Mission Order, USAID/Zambia and FFP/W have
      undertaken the following activities to improve oversight of reporting on
      performance indicators related to food security:

       •   USAID/Zambia has strengthened its FFP Activity Manager’s monitoring plan
           to specifically increase oversight of CFAARM reporting on food security
           performance indicators (Attachment 11). This increased oversight is already
           taking place and will continue during the life of the CFAARM program.

       •   FFP/W has developed a draft reporting guide for FFP Officers, field-based
           and Washington-based (Attachment 12), to increase and improve oversight on
           all Title II programs. FFP/W will finalize the guide, with field input, by end
           of calendar year 2010.

       •   USAID Zambia invited the Senior Monitoring and Evaluation (M&E)
           Specialist from USAID East Africa to Zambia; the specialist provided DQA
           training for COTRs/AOTRs and Activity Managers (including those assigned
           to FFP activities) in Monitoring and Evaluation of USG programs (see
           Attachment 13-June 17, training attendance register). The training will
           enhance COTRs/AOTRs and Activity Managers’ ability to monitor, evaluate
           and manage programs.

       •   USAID/Zambia has held technical and policy meetings with CFAARM aimed
           at improving reporting on performance indicators (Attachments 5, 14,15 and
           16). These meetings will continue as planned through life of program with
           USAID/Zambia in attendance.

Planned Actions:
   1. USAID/Zambia plans to conduct DQA visits to CFAARM, as per the DQA
      Mission Order (Attachment 2), in order to improve oversight of reporting on
      performance indicators.

The above constitutes the measures taken to ensure that Recommendation No. 4 is
addressed. Therefore, Mission recommends that Recommendation No. 4 be closed.




                                                                                       26
Recommendation 5: We recommend that USAID/Zambia provide guidance to
cooperating sponsor officials responsible for implementing food security activities
on the purpose of performance indicators, including how to develop targets and
report, valid, relevant, and reliable information.

Actions Taken:
  1. USAID/Zambia provided guidance to CFAARM on performance indicators,
     targets, and reporting (June 21, 2010 meeting, Attachment 16).

  2. USAID/Zambia has provided CFAARM with written guidance on performance
     indicators, developing targets and quality data reporting (Attachments 17 and 18).
     As a result of the June 21 meeting and guidance provided, CFAARM has
     completed clarifying indicator definitions, data collection methods and reporting of
     its performance indicators (Attachment 19).

  3. FFP/W circulated updated guidance FFP-IB 09-06 (Attachment 8) on monitoring
     and evaluation responsibilities of Multi-Year Program (MYAP) awardees to all
     partners, including CFAARM, for FFP-funded programs. This guidance includes
     Monitoring and Evaluation responsibilities at all stages of programming, final
     evaluation guidance and resources.

  4. The USAID supported FANTA Project-2, holds week-long M&E workshops with
     newly awarded MYAP partners and USG staff, charged with monitoring the
     programs, in order to improve the quality of Title II M&E data and the M&E
     procedures on the ground. The workshops improve the design of program results
     frameworks, baselines, and M&E plans and ensures that required indicators from
     FFP and Missions are included in partner M&E plans and that data are collected in
     a consistent manner. CFAARM began prior to the establishment of the FANTA
     workshops and have not benefited from them to date according to records available
     to the Mission. However, we are aware that CRS headquarters staff attended the
     FANTA M&E workshop held in August 2007 in Washington (Attachment 20).
     FFP/W will request all new MYAP program partners to attend these workshops.

Planned Actions:
   1. CFAARM will submit these ‘clarified indicators’ to FFP/W for approval along
      with the required Pipeline and Resource Estimate Proposal (PREP) by August 31,
      2010.
   2. FFPW will review and approve the PREP by September 30, 2010.

The above constitutes the measures taken to ensure that Recommendation No.5 is
addressed. Therefore, Mission recommends that Recommendation No. 5 be closed.

Recommendation 6: We recommend that USAID/Zambia determine whether
currently reported indicators, that are not required by USAID’s Office of Food for
Peace, should be modified or eliminated to improve the value and quality of the
performance indicator reporting.



                                                                                      27
Actions Taken:
   1. Subsequent to the USAID/Zambia Food Security Audit, and with assistance and
      guidance from FFP/W and USAID/Zambia, CFAARM submitted a draft of
      proposed indicator clarifications (Attachment 19), on program performance.
      USAID/Zambia and FFP/W determined that no indicators should be eliminated.
      Any additional need for further indicator clarifications will be assessed through
      the FY2011 PREP.

   2. The value and quality of the reported performance indicators reporting was
      addressed by USAID/Zambia during the January 2010 CFAARM DQA, as per
      DQA report (Attachment 3). USAID/Zambia has closely followed
      implementation of the DQA recommendations (Attachment 10).

Planned Actions:
   1. Given the upcoming end date of the CFAARM agreement in September 2011,
      FFP determined that changing indicators at this time would be counterproductive.
      Therefore, FFP has requested that CFAARM address any shortcomings on
      individual indicators as part of their final evaluation to inform future
      programming. Attachment 8- Food for Peace Information Bulletin 09-06-Section
      II.D.

   2. FFP will review the draft copy of clarified performance indicators by CFAARM,
      (Attachment 19) through the Pipeline and Resource Estimate Proposal due by
      August 31, 2010 and provide appropriate feedback and guidance.

The above constitutes the measures taken to ensure that Recommendation No. 6 is
addressed. Therefore, Mission recommends that Recommendation No. 6 be closed.

Recommendation 7: We recommend that USAID/Zambia develop a detailed action
plan, with milestones, to increase the pace of project identification by communities
and compensate for vital skilled labor shortages in order to meet the Life of Activity
target for infrastructure improvement.

Actions Taken:
   1. As Activity Manager (not AOTR) and taking into consideration ‘substantial
      involvement’ limitations, USAID/Zambia consulted CFAARM on ways they
      might increase the pace of the project. CFAARM developed a detailed plan,
      which is currently under review by FFP/W for approval along with the PREP, will
      increase the pace of communities identifying projects and compensation for vital
      skilled labor shortages in order to meet the Life of Activity target for
      infrastructure improvement (Attachment 22). The plan attempts to implement
      infrastructure activities in all selected communities by end of project in
      accordance with the CFAARM program description.

Planned Actions:



                                                                                      28
   1. FFP/W and USAID/Zambia will consult regularly with CRS/CFAARM on
      programming and goals as agreed in the meeting of March 30, 2010 (Attachment
      7). As part of FFP program management, FFP/W will continue to review Annual
      Results Reports and coordinate with CRS regularly on progress and outcomes.

   2. The plan developed in Planned Actions #1, above, once reviewed and/or
      modified, as the case may be, and approved by FFP/W, will be included in
      FY2011 PREP and USAID and FFP will use the presented plan to monitor
      progress. The FY2011 PREP review is due at the end of FY 2010.

The above constitutes the measures taken to ensure that Recommendation No.7 is
addressed. Therefore, Mission recommends that Recommendation No.7 be closed.

Recommendation 8: We recommend that USAID/Zambia coordinate a cost analysis
to determine whether internal transport, storage, and handling costs have been
correctly classified and to ascertain the most cost-effective method of transporting
and distributing commodities.

Actions taken:
   1. FFP/W performs a cost analysis and a funding classification analysis at program
      initiation and annually for the CFAARM program. The CFAARM budget was
      reviewed when the program was proposed, and is reviewed each year by the
      program operations division at FFP/W (Attachment 23). Any excessive costs or
      inappropriate classifications are addressed and resolved at that time.

       It is worthy noting that the CFAARM program does not have any advantage on
       economies of scale in commodity distribution as it handles relatively small
       quantities of food commodities. Some examples where CFAARM is
       disadvantaged include:

           •   The program’s average food commodity needs per district per year, is 250
               metric tones. Available average storage space in all districts is 1,500
               metric tones. CFAARM has limited options and therefore needs to rent
               the available space for only 250metric tones through the year.
           •   The program distributes an average of two metric tones per month to 60
               sites, spread over six districts. The small quantity, distance, and spread of
               sites does not attract competitive distribution bids.

Planned Actions:
   1. FFP and USAID/Zambia plan to continue to perform annual cost analysis and
      funding classification analysis for the CFAARM program. In reviewing future
      budget PREP submissions, starting with FY 2011 submission, FFP/W and USAID
      Zambia will conduct a more thorough cost analysis to determine whether internal
      transport, storage, and handling costs are correctly classified and are reasonable.
      Further, to ascertain the most cost-effective method of transporting and
      distributing commodities, FFP/W and USAID/Zambia will ensure that CFAARM


                                                                                          29
       gets multiple costs in accordance with USAID procurement policies and
       guidelines.

The above constitutes the measures taken to ensure that Recommendation 8 is addressed.
Therefore, Mission Management recommends that Recommendation 8 be closed.

The above constitutes USAID/Zambia’s management decisions and comments with
regard to Recommendations 1, 2, 3, 4,5,6,7, and 8 contained in audit report number 9-
611-10-XXX-P. Therefore, in accordance with ADS 595.3, this memo constitutes the
management decisions and measures taken/planned to address the recommendations in
Audit Report No. 4-611-10-XXX-P and requests the closure of all the eight (8) audit
recommendations.
Attachment: a/s




                                                                                        30
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
